CERTIFICATE OF SERVICE
NO. 20-588
Lyneal Wainwright, Warden
Petitioner,
v.
Jason S. Sexton
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JASON
S. SEXTON BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov
Counsel for Lyneal Wainwright, Warden

Lucas DeDeus

December 3, 2020
SCP Tracking: Hessler-6055 Rockside Woods Blvd.-Cover Orange

